   August 9, 2006




Logistics
Implementation of Performance-Based
Logistics for the Joint Surveillance
Target Attack Radar System
(D-2006-105)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Office of the Deputy
  Inspector General for Auditing at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Front Office at
  (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and requests can
  also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BCA                   Business Case Analysis
Joint STARS           Joint Surveillance Target Attack Radar System
NGC                   Northrop Grumman Corporation
PBA                   Performance-Based Agreement
PBL                   Performance-Based Logistics
SPM                   System Program Manager
SSM                   System Support Manager
TSSR                  Total System Support Responsibility
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                            August 9,2006




SUBJECT: Report on Implementation of Performance-Based Logistics for the Joint
         Surveillance Target Attack Radar System (Report No. D-2006-105)

       We are providing this report for review and comment. We considered
nlanagenlent comillents on a draft of this report in preparing the final report.
        DoD Directive 7650.3 requires that all recon~mendationsbe resolved pronlptly.
The colnnlents provided by the Military Deputy, Office of the Assistant Secretary of the
Air Force (Acquisition) on behalf of the Assistant Secretary of the Air Force
(Acquisition) were responsive on all but one recommendation. We request that the
Assistant Secretary of the Air Force (Acquisition) provide comments clarifying his
position on Recolnmendation 2.e. by August 25, 2006.
       If possible, please send lnanagenlent colnnlents in electronic forn~at(Adobe
Acrobat file only) to AudRLS@!dodiu.mil. Copies of the management co~llnlentsmust
contain the actual signature of ?he authorizing official. We cannot accept the / Signed 1
sy~nbolin place of the actual signature. If you arrange to send classified co~u~nents
electro~~ically,
               they must be sent over the SECRET Internet Protocol Router Network
(SIPERNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Robert F. Prinzbach at (703) 604-8907 (DSN 664-8907) or Mr. Keith A. Yancey
at (703) 604-8774 (DSN 664-8774). See Appendix C for the report distribution. The
team members are listed inside the back cover.



                                          Wanda A. Scott
                                          Assistant Inspector General
                                          Readiness and Operations Support Directorate
               Department of Defense Office of Inspector General
Report No. D-2006-105                                                      August 9, 2006
   (Project No. D2005-D000LH-0046.000)

          Implementation of Performance-Based Logistics for the
             Joint Surveillance Target Attack Radar System


                                 Executive Summary

Who Should Read This Report and Why? DoD personnel and Government
contractors responsible for implementing performance-based logistics (PBL) should read
this report. The report discusses implementation of PBL for the Joint Surveillance Target
Attack Radar System (Joint STARS).

Background. PBL is the DoD-preferred approach for implementing product support.
The approach is a strategy for weapon system life-cycle sustainment that links product
support to weapon system performance. The goal of PBL is to optimize total system
availability while minimizing cost and the logistics footprint. Logistics footprint is the
amount of support required to deploy, sustain, and move a weapon system. PBL places
accountability for product support on the program manager. The program manager may
use organic (DoD) support, commercial sector support, or a partnership between organic
and commercial providers. The PBL may involve arrangements between public and
private sectors or between two public organizations. The Assistant Deputy Under
Secretary of Defense (Logistics Plans and Programs) oversees implementation of PBL.

The Defense Planning Guidance for FY 2003 through FY 2007 required that each
Military Department submit a plan that would identify its implementation schedule for
applying PBL to any new weapon system as well as any Acquisition Category I and II
fielded system. On June 25, 2004, the Air Force identified that it implemented PBL for
Joint STARS.
The Joint STARS aircraft, which is an Acquisition Category I program, is a joint
development project of the Air Force and the Army. The aircraft provides an airborne,
stand-off range, surveillance and target acquisition radar and command and control
center. Joint STARS conducts ground surveillance and helps commanders understand an
enemy situation as well as supports attack operations and targeting. Joint STARS
detects, locates, classifies, tracks, and targets hostile ground movements, communicating
real-time information through secure data links between Air Force and Army command
posts. The Joint STARS was first deployed in Operation Desert Storm in 1991 and began
full rate production of 14 aircraft in September 1996. As of December 1, 2005, 17
aircraft are in the Air Force inventory.

Results. The Joint STARS System Program Manager did not fully implement PBL
initiatives for the Joint STARS weapon system. As a result, the System Program
Manager cannot support that the Joint STARS weapon system is achieving the desired
outcomes of PBL, such as reducing life-cycle costs and increasing system availability.
We recommend that the Assistant Secretary of the Air Force (Acquisition) distribute
DoD policy memorandums and guides for implementing performance-based logistics.
We also recommend that the System Program Manager develop performance-based
agreements with the warfighter, develop a strategy that implements performance
requirements, and analyze Joint STARS cost and resource data and develop baselines.
Further, we recommend that the System Program Manager develop a business case
analysis based on warfighter requirements and baselines, develop performance measures
that promote the goal of increased system readiness and reductions in life-cycle costs and
logistics footprints for Joint STARS, and analyze transitioning the total system support
responsibility contract to a firm-fixed price contract. (See the Finding section for the
detailed recommendations.)

Management Comments and Audit Response. The Military Deputy, Office of the
Assistant Secretary of the Air Force (Acquisition) provided comments on behalf of the
Assistant Secretary of the Air Force (Acquisition). The Military Deputy partially
concurred with our draft finding that the System Program Manager did not fully
implement the PBL initiative for Joint STARS. The Military Deputy stated that the Joint
STARS System Program Manager did not retroactively apply PBL principles as a result
of the total system support contract, which was a model for sustainment approach before
the PBL guidance.

The Military Deputy concurred with our recommendation to distribute DoD policy
memorandums and guides to each Product Center for implementing PBL and with our
recommendation to analyze Joint STARS cost and resource data as well as develop
baselines for developing a business case analysis. The Military Deputy also agreed with
our recommendation to analyze the impact of transitioning the total system support
contract from a cost-plus contract to a firm-fixed priced contract. No further comments
are required.

The Military Deputy also partially concurred with our recommendation to develop
performance-based agreements and a strategy that implements performance requirements
from those agreements into the Joint STARS total system support responsibility contract.
He stated that improvements will be made to the scope, objective, and performance of the
performance-based agreement. The Military Deputy partially concurred with our
recommendation to develop a business case analysis using baselines, stating a forward-
looking business case analysis will be conducted in accordance with policy guidance and
assess alternative solutions that will meet the objectives of the warfighter. The Air Force
comments are responsive, and no further comments are required.

The Military Deputy partially concurred with our recommendation to develop
performance measures for the Joint STARS contract that will promote the goal of
increasing system readiness, reducing life-cycle costs, and reducing the logistics
footprint. However, the Military Deputy stated that those goals were already in the
memorandum of agreement. The Air Force comments were partially responsive. The
memorandum of agreement was not clear that it contained established goals of increasing
system readiness, reductions in total life-cycle costs, and reductions in the logistics
footprints. We request that the Assistant Secretary of the Air Force (Acquisition) clarify
his response to develop new performance measures in meeting those goals and provide
additional comments to the final report by August 25, 2006. See the Finding section of
the report for a discussion of management comments and the Management Comments
section for the complete text of comments.


                                            ii
Table of Contents

Executive Summary                                          i

Background                                                 1

Objectives                                                 3

Management Control Program Review                          3

Finding
     Implementation of Performance-Based Logistics on
      the Joint STARS Weapon System                        4

Appendixes
     A. Scope and Methodology                             12
     B. Prior Coverage                                    13
     C. Report Distribution                               15

Management Comments
     Assistant Secretary of the Air Force (Acquisition)   17
Background
           Performance-Based Logistics. Performance-based logistics (PBL) is the
           DoD-preferred approach for implementing product support. The approach is a
           strategy for weapon system life-cycle sustainment that links product support to
           weapon system performance. The goal of PBL is to optimize total system
           availability while minimizing costs and the logistics footprint. Logistics footprint
           is the amount of support required to deploy, sustain, and move a weapon system.
           PBL places accountability for product support with the program manager. The
           program manager has several options available for obtaining product support.
           Those options include areas such as organic (DoD) support, commercial support,
           or a partnership between organic and commercial providers.

           Office of the Secretary of Defense Implementation
                                              1
                                                             of PBL. In September
           2001, the Quadrennial Defense Review mandated implementation of PBL for
           DoD acquisitions. The Under Secretary of Defense for Acquisition, Technology,
           and Logistics (USD[AT&L]) assigned the Assistant Deputy Under Secretary of
           Defense (Logistics Plans and Programs) with the responsibility of overseeing the
           DoD implementation of PBL.

           Key Guidance for Implementing PBL. Since the 2001 Quadrennial Defense
           Review mandated implementation of PBL, the USD(AT&L) and the Air Force
           have issued policy memorandums, support guides, and instructions designed to
           facilitate implementing PBL for DoD acquisitions, both new and fielded.
           Guidance includes the following:

               •    USD(AT&L) memorandum, dated February 13, 2002, states that the
                    FY 2003-07 Defense Planning Guidance requires that each Military
                    Department submit a plan identifying its implementation schedule for
                    applying PBL to all Acquisition Category I and II 2 new and fielded
                    weapon systems. The memorandum provides guidelines for preparing
                    PBL implementation schedules as well as information that further
                    guidance for developing PBL strategies and implementation is contained
                    in the November 2001 document, “Product Support for the 21st Century:
                    A Program Manager’s Guide to Buying Performance.” The guide
                    requires that Program Managers implement PBL on new systems and on
                    Acquisition Category I and II fielded systems on the basis of a sound
                    business case analysis that looks at alternative support strategies.
               •    DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003,
                    establishes policies for acquisition programs in DoD. The Directive states

1
    The Quadrennial Defense Review is the strategic planning document for DoD to transform its defense
    planning to a model capable of dealing with threats in the 21st century.
2
    The acquisition category determines an acquisition program’s level of review, decision authority, and
    applicable procedures. Acquisition Category I programs are acquisition programs with an estimated total
    expenditure for research, development, test, and evaluation of more than $365 million or procurement of
    more than $2.19 billion. Acquisition Category II programs have an estimated total expenditure for
    research, development, test, and evaluation of $365 million or less but more than $140 million or
    procurement of $2.19 billion or less but more than $660 million.

                                                      1
       that Program Managers must develop and implement PBL strategies that
       optimize total system availability while minimizing cost and the logistics
       footprint.

   •   In November 2004, the “Performance Based Logistics: A Program
       Manager’s Product Support Guide” superseded the Program Manager’s
       Guide to Buying Performance. The Product Support Guide is designed to
       help managers develop product support strategies for new programs and
       help reengineer product support for existing fielded systems.

   •   Air Force Instruction 63-107, “Integrated Product Support Planning and
       Assessment,” November 10, 2004, contains the PBL guidance for the Air
       Force. The Instruction provides policy for integrated product support
       planning and assessment for implementation of PBL. The Instruction
       states that the program manager must ensure that logistics, as a process for
       weapon system support, serves two key objectives: (1) system readiness is
       increased through integrated logistics and (2) resources required to fulfill
       support requirements are minimized.

Implementing PBL Initiatives for the Joint Surveillance Target Attack
Radar System. The Joint Surveillance Target Attack Radar System (Joint
STARS) aircraft is an Acquisition Category I program. The system is a joint
development project of the Air Force and the Army that provides airborne, stand-
off range, surveillance and target acquisition radar and command and control. It
can conduct ground surveillance to help commanders understand the enemy
situation and support attack operations and targeting. As of December 1, 2005,
the Air Force had 17 operational Joint STARS aircraft in its inventory. The
116th Air Control Wing (warfighter), Robins Air Force Base, Georgia, is the
primary user of the aircraft. The program management office for Joint STARS is
the System Program Manager (SPM), located at the Electronic Systems Center,
Hanscom Air Force Base, Massachusetts. The System Support Manager (SSM),
Warner Robins Air Logistics Center at Robins Air Force Base, manages the Joint
STARS sustainment responsibilities for the SPM.
In response to the FY 2003-07 Defense Planning Guidance requirement to submit
a plan identifying a schedule for applying PBL to all new weapon systems and all
Acquisition Category I and II fielded systems, the Air Force stated in June 2004
that the Joint STARS program implemented PBL initiatives. The Air Force made
its decision based on the September 2000 award of a contract to Northrop
Grumman Corporation (NGC) for total system support responsibility (TSSR).
The Air Force supported its decision on several performance incentives in the
TSSR contract. Under the TSSR contract, NGC is the weapon system integrator
providing life-cycle sustainment support. The goals of the TSSR contract are to
increase weapon system availability and decrease total ownership costs. The
TSSR contract has a 6-year base period with a potential for NGC earning as many
as 16 additional years for a maximum value of $7 billion over the life of the
contract.




                                    2
Objectives
    Our overall audit objective was to evaluate the effectiveness of the Air Force
    implementation of PBL for the Joint STARS. Specifically, we assessed the
    adequacy of the business case analysis (BCA) and determined whether
    implementation of PBL resulted in improvement of system availability, readiness,
    and cost. We also reviewed the management control program as it related to the
    overall objective. See Appendix A for a discussion of the scope and
    methodology. See Appendix B for prior coverage related to the objectives.


Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,” August
    28, 1996, require DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of Air Force implementation of PBL through our audit of the Joint
    STARS SPM and SSM processes and procedures for implementing PBL for the
    Joint STARS weapon system. We also reviewed management’s self-evaluation of
    those processes and procedures.

    Adequacy of Management Controls. The Air Force SPM and SSM did not
    know the processes and procedures USD(AT&L) issued for PBL. The processes
    and procedures the SPM and the SSM used were insufficient to ensure full
    implementation of PBL for Joint STARS. USD(AT&L) issued PBL policy
    memorandums and guidance to the Air Force. Because the SPM and the SSM
    stated they did not receive USD(AT&L) PBL documentation from the Air Force
    and were unaware of its requirements, we provided them copies of those
    documents. We do not consider this weakness in issuing policies and procedures
    a material weakness as DoD Instruction 5010.40 defines. We discussed the
    weakness with personnel from USD(AT&L) and Air Force, who stated that
    reiteration of the policies and procedures for implementing PBL were needed.
    The recommendation, if implemented, will correct the management control
    weakness cited (see Recommendation 1). A copy of the report will be provided to
    the senior official responsible for management controls in the Air Force.

    Adequacy of Management’s Self-Evaluation. Neither the SPM nor SSM
    identified initiatives of PBL to include the development of a BCA, performance
    baselines, performance outcomes, and performance-based agreements with the
    warfighter, as an assessable unit. Therefore, the program office did not identify
    or report the control weakness.




                                         3
            Implementation of Performance-Based
            Logistics on the Joint STARS
            Weapon System
            The Joint STARS SPM did not fully implement PBL initiatives for the
            Joint STARS weapon system. The lack of full implementation occurred
            because the SPM did not reassess the Joint STARS support strategy and
            incorporate USD(AT&L) guidance for implementing PBL. As a result,
            the SPM cannot support that the Joint STARS weapon system is achieving
            the desired outcomes of PBL, such as reducing life-cycle costs and
            increasing system availability.


Applying PBL Initiatives to DoD Weapon Systems
    “Performance Based Logistics: A Program Manager’s Product Support Guide”
    (Product Support Guide), November 2004, states that PBL uses a performance-
    based acquisition strategy that is developed, refined, and implemented during the
    systems acquisition process for new programs. The Product Support Guide
    further states that the strategy is the result of an assessment of performance
    and support alternatives for fielded systems. The Product Support Guide
    describes the essence of PBL as buying performance outcomes, not the individual
    parts and repair actions. Such a major shift from the traditional approach to
    product support emphasizes what level of support program managers buy, not
    who they buy from. In a memorandum issued by the Acting USD(AT&L),
    “Performance Based Logistics: Purchasing Using Performance Based Criteria,”
    August 16, 2004, it stated that application of the PBL concept may take place at
    the system, subsystem, or major assembly level depending on program unique
    circumstances.

    The Product Support Guide presents a 12-step methodology for implementing
    PBL that is applicable to new, modified, or fielded systems. Those 12 steps are:

       1.   Integrate requirements and support
       2.   Form the PBL team
       3.   Baseline the system
       4.   Develop performance outcomes
       5.   Select the product support integrator
       6.   Develop a workload allocation strategy
       7.   Develop a supply chain management strategy
       8.   Perform a PBL business case analysis
       9.   Establish performance based agreements
      10.   Award contracts
      11.   Employ financial enablers
      12.   Implement and assess


                                        4
    According to the Product Support Guide, the PBL implementation process is not
    intended as rigid. In fact, the Product Support Guide states that the order in
    which steps are taken can be flexible and allows for omission of some steps. Our
    review of PBL implementation for the Joint STARS weapon system focused on
    four of the key steps to implementing PBL: establishing performance-based
    agreements with the warfighter; baselining the system; developing a BCA; and
    developing performance outcomes.


Establishing Performance-Based Agreements with
  the Warfighter
    The Joint STARS sustainment strategy lacks support of fully developed PBAs
    with the warfighter.

    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,”
    May 12, 2003, states that, “the program manager shall work with the users to
    document performance and support requirements in performance agreements
    specifying objective outcomes, measures, resource commitments and stakeholder
    responsibilities.”

    In addition to the Instruction, the Product Support Guide states that a PBA creates
    a clear understanding of the outcomes and the commitments required for
    achieving those outcomes among stakeholder parties. Typically, a PBA identifies
    the warfighter’s expected performance goals and objectives, such as availability
    and cost, and establishes a target price based on the desired level of performance.
    Documentation of a completed, approved, and funded PBA with a targeted price
    based on the desired outcome is a critical step in any PBL implementation.

    The Joint STARS SSM identified two memorandums of agreement with the
    warfighter as PBAs. Those memorandums, one dated June 11, 1998, and the
    other dated September 15, 2004, did not incorporate the warfighter’s expected
    performance goals, objectives, and target price based on the desired level of
    performance. For example, an Air National Guard official stated that having only
    three aircraft in scheduled depot maintenance at any given time is a goal of the
    warfighter. However, this goal was not documented in a PBA or an updated
    memorandum of agreement. In addition, the goal was not included as a
    performance measure in the TSSR contract. Our review of the records for the
    Joint STARS scheduled depot maintenance showed the average number of
    aircraft in scheduled maintenance per month for FY 2004 was 5.4 aircraft. Had
    the warfighter goal of three aircraft in scheduled depot maintenance been met in
    FY 2004, at least two additional aircraft would have been available to the
    warfighter. Developing PBAs or updating the existing memorandums of
    agreement based on current warfighter requirements will help ensure the
    attainment of warfighter goals through the TSSR contract.




                                         5
Baselining Costs and Performance
     The Joint STARS SPM did not develop cost and performance baselines for the
     Joint STARS weapon system before the August 2000 approval by Air Force
     acquisition officials. In addition, when the Product Support Guide was issued, the
     Joint STARS SPM did not reassess performance baselines.

     The Product Support Guide states that to develop an effective support strategy, a
     program manager should identify differences between existing and desired
     performance requirements. Therefore, the program manager identifies and
     documents the current performance and cost baselines. For existing systems,
     baseline assessments form the basis for the BCA of PBL approaches being
     considered. Determination of the sustainment and readiness performance history
     and associated operations and support cost is essential. Therefore, actual data,
     when available, should be used for fielded systems.

     The Defense Acquisition University Web site contains a Toolkit to assist a
     program manager when creating and implementing PBL. One section of this
     Toolkit describes baselines as the starting point for measuring progress in the
     quality or quantity of work or performance related to either a product or service.
     The section also states that baselines are not necessarily set only at the
     beginning of a program but should be reset as the program evolves so the
     program manager can document where they are at various milestones over
     the life cycle.

     The Joint STARS program office began developing the sustainment strategy in
     1998. The original strategy called for a consolidation of up to 11 contracts into
     2 major contracts—one sole-source and one competitive. The strategy was
     revised and the new strategy called for NGC being in charge of sustainment,
     which led to the integration of sole-source, competitive, and depot efforts.
     Several acquisition and weapon system personnel questioned the revised strategy
     because, according to acquisition personnel, officials needed a full understanding
     of the proposed costs and performance compared with the current baseline.
     Although questions about the baselines for Joint STARS were asked, acquisition
     officials determined that baselines were not necessary and none were
     documented. As of November 29, 2005, the Joint STARS SPM has not
     reassessed the Joint STARS sustainment strategy originally approved in August
     2000. Now that production of Joint STARS aircraft is complete and more than 5
     years of cost and performance data are available, an accurate baseline should be
     established and used in the development of a BCA and measurement of the
     sustainment strategy’s performance.


Developing a Business Case Analysis
     The Joint STARS SPM did not prepare a BCA to provide analysis of potential
     alternative support strategies.



                                          6
The Product Support Guide states a PBL BCA is an expanded cost and benefit
analysis created to help determine a best-value solution for product support. The
warfighter’s stated performance requirements, which are documented in a PBA,
form the basis for a BCA. Development of a PBL BCA should determine at a
minimum: (1) the relative cost versus benefits of different support strategies;
(2) methods and rationale used for quantifying benefits and costs; (3) impact and
value of performance, cost, schedule, and sustainment trade-offs; (4) data required
to support and justify the PBL strategy; and (5) a recommendation and summary
of the implementation plan for proceeding with the best value alternative.

The Product Support Guide further states that a BCA should be updated at
appropriate decision points when sufficient cost and performance data are
available for validating the assumptions used, including the costs of alternative
approaches, projected cost savings, and expected performance levels. The
Product Support Guide also concludes that the BCA must stand on its own
and be able to withstand the rigorous analysis and review of any independent
audit agency.

The Acting USD(AT&L) issued policy memorandum “Performance Based
Logistics (PBL) and the Business Case Analysis (BCA),” on March 20, 2004.
The memorandum states that the Strategic Planning Guidance requires that the
Services complete a BCA by September 30, 2006, on all new and fielded
Acquisition Category I and II programs for application of PBL sustainment
strategies. Further, the memorandum states that the assessment should be
conducted through a two-step process, with Step 2 the development of a formal
BCA.

Although the TSSR contract predates formal PBL BCA requirements, DoD
guidance at that time required that DoD evaluate alternative support strategies.
DoD Instruction 7041.3, “Economic Analysis for Decisionmaking,” November 7,
1995, requires that alternatives be evaluated and that the cost and benefits
associated with each alternative under consideration be quantified and ranked
when possible. Our review of the TSSR contract files showed that, although
alternative sustainment support strategies were under consideration, senior Air
Force acquisition officials determined that the TSSR sustainment approach would
be chosen and a cost benefit analysis was not necessary.
When asked whether a BCA was developed for the Joint STARS weapon system
based on PBL BCA guidance at the time, the SPM provided a series of briefing
charts that included several charts described as the BCA. However, the SPM
could not provide support for any of the projected savings for supply chain
management, depot maintenance, or support response contained in the charts and
did not include an analysis of alternatives.

Because the TSSR contract is more than 5 years old, sufficient cost data are
available for the SPM to reassess the support strategy. To ensure that the TSSR
contract is the optimum support strategy and meeting warfighter performance and
cost requirements, increasing system availability, and reducing costs, the Joint
STARS SPM should answer the USD(AT&L) requirement and complete a BCA
for the Joint STARS weapon system by September 30, 2006.


                                     7
Developing Performance Outcomes
    While the TSSR contract contains several performance measures, it does not
    contain performance metrics that promote the PBL goal of increasing system
    readiness, reducing total ownership costs, and reducing the logistics footprint.

    The Product Support Guide states that at the top level, performance outcomes and
    corresponding metrics should focus on warfighter needs: a system that is
    operationally available, reliable, and effective, with minimal logistics footprint
    and a reasonable cost.

    An August 16, 2004, memorandum from the Acting USD(AT&L), “Performance
    Based Logistics: Purchasing Using Performance Based Criteria,” states that for
    PBL, performance is defined in terms of military objectives using operational
    availability, operational reliability, cost per unit usage, the logistics footprint, and
    logistics response time. PBL metrics should support that criteria. In addition, the
    memorandum provides guidance that states PBL contracts should be fixed price.
    In another USD(AT&L) memorandum dated November 22, 2005, the criteria
    from the August 16 memorandum was reiterated and directed the criteria’s use as
    the standard set of metrics for evaluating overall total life-cycle systems
    management.

    For FY 2003 and FY 2004, Joint STARS was below the warfighter’s mission
    capability requirement. According to the SSM, factors impacting the ability of
    the warfighter to meet mission capability rates were engines, fuels, airframe, and
    flight control. The components, referred to as “bad actors,” are organically
    maintained through Service-level agreements between NGC and Air Force
    depots. DoD and Air Force guidance both include increased mission capability
    as a PBL goal. Furthermore, NGC did not have the responsibility for the “bad
    actors” and therefore, did not have total control over Joint STARS mission
    capability under the TSSR contract.

    In October 2004, an Air Force Logistics Management Agency report entitled,
    “Performance Based Logistics Partnerships: Assessment of Implementation
    Methodologies for Selected Acquisition Category 1 and 2 Systems,” stated that
    Air Force systems, including Joint STARS, were not using high-level
    performance metrics. The report cited mission capability rate, improved product
    affordability, system reliability, and logistics footprint as examples of high-level
    metrics that measure success in meeting PBL performance goals.
    Officials from the Air Combat Command and Air Force National Guard stated
    that the Air Force is studying mission capability rates as a performance driver.
    The Air Force is also looking into ways that will incorporate the Joint STARS
    mission capability rate into the TSSR contract.




                                           8
Management Comments on the Finding and Audit Response
The Military Deputy, Office of the Assistant Secretary of the Air Force (Acquisition)
provided comments on behalf of the Assistant Secretary of the Air Force (Acquisition).
The Military Deputy partially concurred with our draft finding that the SPM did not fully
implement PBL initiatives for Joint STARS, stating that the Joint STARS SPM did not
retroactively apply PBL principles because the TSSR contract was a model for
sustainment approach before PBL guidance. He also stated that the SPM agreed to
rebaseline the sustainment cost using the TSSR contract data collected over the last
5 years, which will form the basis for a BCA for Joint STARS sustainment. The Military
Deputy provided other comments on the draft finding which mirror their comments on
each recommendation. Therefore, we discuss each of these in the Recommendation,
Management Comment, and Audit Response section of the report.


Recommendations, Management Comments, and
  Audit Response
       1. We recommend that the Assistant Secretary of the Air Force (Acquisition)
       ensure that DoD policy memorandums and guides are distributed to each
       Product Center for use in implementing performance-based logistics.

       Management Comments. In responding for the Assistant Secretary of the Air
       Force (Acquisition), the Military Deputy concurred, stating that the Air Force will
       validate that policy memorandums and guidance for PBL are available to each
       Product Center, Program Executive Offices, and SPMs.

       Audit Response. The Air Force comments are responsive, and no further
       comments are required.

       2. We recommend that the System Program Manager for the Joint
       Surveillance Target Attack Radar System:
              a. Develop performance-based agreements in conjunction with the
       116th Air Control Wing based on warfighter performance requirements.

             b. Develop a strategy that implements into the total system support
       responsibility contract performance requirements obtained from the
       performance-based agreements.

       Management Comments. In responding for the Assistant Secretary of the Air
       Force (Acquisition), the Military Deputy partially concurred with
       Recommendations 2.a. and 2.b., stating that the Joint STARS program office
       memorandum of agreement specifies the level of support for warfighter
       requirements. Further, the Task Description Document, an attachment to the
       memorandum of agreement, integrates the negotiated support required from the
       contractor to manage system impacts. The Military Deputy also stated that plans
       were underway to revise the BCA in conjunction with the planned improvements
       to the scope, objectivity, and performance of their performance-based agreements.
                                            9
The effort will provide an avenue for the SPM to improve warfighter support and
overall weapon system performance for Joint STARS.

Audit Response. Although the Military Deputy partially concurred, the
memorandum of agreement was not clear in specifying warfighter requirements.
Therefore, the Task Description Document did not clearly specify the warfighter
requirements for the Defense contractor. However, the Military Deputy’s stated
actions to revise the BCA in conjunction with the planned improvements to the
scope, objectivity, and performance of their PBL agreements are responsive. No
further comments are required.

       c. Analyze current Joint STARS cost and resource data and develop
baselines for use in developing a business case analysis.

Management Comments. In responding for the Assistant Secretary of the Air
Force (Acquisition), the Military Deputy concurred and stated that the planned
revision to the BCA will encompass accumulated contract performance data over
the last 5 years in rebaselining the cost and performance history, which will shape
the scope and content of future options for Joint STARS. The expected
completion date for the action is September 30, 2006.

Audit Response. The Air Force comments are responsive, and no further
comments are required.

       d. Develop a business case analysis using baselines developed in
Recommendations 2.a. and 2.c. above that would meet the deadline of
September 30, 2006, that the Under Secretary of Defense for Acquisition,
Technology, and Logistics established. The business case analysis should
include an evaluation of alternative sustainment support strategies and cost
benefits for the Joint STARS.

Management Comments. In responding for the Assistant Secretary of the Air
Force (Acquisition), the Military Deputy partially concurred, stating that even
though the Joint STARS program meets the intent of the USD(AT&L)
implementation guidance, the Air Force will develop a forward-looking BCA.
The Military Deputy further stated that he will assess alternative solutions that
meet performance objectives of the warfighter and conduct an analysis that will
consider quantifiable and nonquantifiable factors that support an optimum
investment decision. The expected completion date for the action is March 31,
2007.
Audit Response. Although the Military Deputy partially concurred, the BCA it
had in place did not meet the intent of the guidance that the USD(AT&L) issued.
However, the Military Deputy’s agreement to develop a BCA is responsive.
Although the expected date of completion does not meet the USD(AT&L)
required date, we accept the Air Force’s actions to develop a forward-looking
BCA in accordance with the policy guidance. No further comments are required.




                                    10
       e. Develop performance measures for the Joint STARS total system
support responsibility contract that will promote the goal of increasing
system readiness, reducing total life-cycle costs, and reducing the logistics
footprint.

Management Comments. In responding for the Assistant Secretary of the Air
Force (Acquisition), the Military Deputy partially concurred and stated that
performance measures that promote the goal of system readiness, reduction in
total life-cycle costs, and reduction of logistics footprint were already in the
memorandum of agreement. Further, the Military Deputy stated that the Air
Force uses a continuous improvement process that is based on warfighter
requirements and experience. The impending revision to the BCA in conjunction
with PBAs will provide avenues for the SPM to improve warfighter support and
overall weapon system performance.

Audit Response. The Military Deputy’s comments were partially responsive.
The memorandum of agreement was not clear that they had in place goals of
increasing system readiness, reduction in total life-cycle costs, and reductions in
logistics footprint. Although their efforts to revise the BCA in conjunction with
PBAs will assist in promoting those goals, we request that the Assistant Secretary
of the Air Force (Acquisition) provide clarification on his actions to develop new
performance measures in meeting these goals and provide additional comments in
response to the final report.

       f. Analyze the impact of transitioning the total system support
responsibility contract from a cost-plus contract to a firm-fixed
priced contract.

Management Comments. In responding for the Assistant Secretary of the Air
Force (Acquisition), the Military Deputy concurred and stated the expected
completion date for this action is March 31, 2007.

Audit Response. The Air Force comments are responsive, and no further
comments are required.




                                    11
Appendix A. Scope and Methodology
   We performed the audit at the Joint STARS Joint Program Office located at the
   Electronic Systems Center, Hanscom Air Force Base, Massachusetts and at
   Warner Robins Air Logistics Center, Robins Air Force Base, Georgia. We also
   conducted audit work at the Defense Contract Management Agency in
   Melbourne, Florida. We contacted personnel at the Office of the USD(AT&L);
   the office of the Assistant Secretary of the Air Force (Acquisition); the office of
   the Assistant Secretary of the Air Force (Installation and Logistics); the Air
   Combat Command; the Air National Guard; and the Defense Logistics Agency.
   We reviewed documents dated from November 1995 to November 2005.

   We assessed the adequacy of the Joint STARS program office implementation of
   PBL by reviewing DoD and Air Force policies and regulations regarding
   responsibilities and procedures for implementing PBL. We also reviewed the
   Quadrennial Defense Review and DoD directives pertaining to PBL. We
   reviewed the adequacy of the BCA by reviewing DoD and Air Force guidance.
   We assessed the TSSR contract for PBL provisions.

   We interviewed program office officials pertaining to the various aspects of
   implementing PBL and incorporating PBL requirements in the TSSR contract.
   Discussions included the sustainment approach for Joint STARS, development of
   PBAs, baselines, and performance outcomes as well as the use of both fixed-price
   and cost plus fixed-fee contracts to conduct scheduled depot maintenance.
   Further, we interviewed officials at Defense Contract Management Agency to
   inquire about their monitoring of the TSSR contract and their reporting to the
   program office.

   We performed this audit from October 2004 through February 2006 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.
   Use of Technical Assistance. We did not rely on the assistance from the
   members of the Quantitative Methods Division and the Technical Assessment
   Division of the OAIG-AUD.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office (GAO) has identified several high-risk areas in DoD. This
   report provides coverage of the Defense Weapon Systems Acquisition high-risk
   area.




                                        12
Appendix B. Prior Coverage
    During the last 5 years, GAO, the DoD Inspector General (IG), and the Navy
    issued 14 reports related to implementing PBL. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-05-966, “Defense Management: DoD Needs to
    Demonstrate That Performance-Based Logistics Contract Are Achieving
    Expected Benefits,” September 9, 2005

    GAO Report No. GAO-04-715, “Defense Management: Opportunities to
    Enhance the Implementation of Performance-Based Logistics,” August 16, 2004

    GAO Report No. GAO-02-1049, “Contract Management: Guidance Needed for
    Using Performance-Based Service Contracting,” September 23, 2002

    GAO Report No. GAO-02-306, “Defense Logistics: Opportunities to Improve
    the Army’s and the Navy’s Decision-making Process for Weapons Systems
    Support,”
    February 28, 2002

    GAO Report No. GAO-01-618, “Defense Logistics: Air Force Lacks Data to
    Assess Contractor Logistics Support Approaches,” September 7, 2001


DoD IG
    DoD IG Report No. D-2005-037, “Implementation of Performance Based
    Logistics for the Javelin Weapon System,” March 7, 2005
    DoD IG Report No. D-2004-110, “The Military Departments’ Implementation of
    Performance-Based Logistics in Support of Weapon Systems,” August 23, 2004

    DoD IG Report No. D-2004-021, “Effectiveness of Maintenance Work Performed
    Under Contract FA4452-01-C-0001 at Andrews Air Force Base,”
    November 19, 2003

    DoD IG Report No. D-2003-120, “F/A-18E/F Integrated Readiness Support
    Teaming Program,” August 8, 2003

    DoD IG Report No. D-2002-112, “Industrial Prime Vendor Program at the Air
    Force Air Logistics Centers,” June 20, 2002


                                      13
       DoD IG Report No. D-2000-180, “Commercial Contract for Total Logistics
       Support of Aircraft Auxiliary Power Units,” August 31, 2000


Navy
       Naval Audit Service Report No. N2003-0050, “Contractor Logistics Support
       Oversight,” May 15, 2003

       Naval Audit Service Report No. N2003-0024, “Contractor Logistics Support at
       the Naval Air Systems Command,” January 29, 2003

       Naval Audit Service Report No. N2002-0069, “Contractor Logistics Support at
       the Space and Naval Warfare Systems Command,” August 8, 2002




                                         14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics (Acquisition
   Technology and Logistics)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force
Director, Air Combat Command
Director, Air National Guard
Commander, Program Executive Office, Electronic Systems Center, Hanscom AFB
 System Project Manager, Joint Surveillance Target Attack Radar System, Hanscom
     AFB
  System Support Manager, Warner Robins Air Logistics Center

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        16
Department of the Air Force Comments




                     17
18
19
20
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Operations Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Wanda Scott
Robert F. Prinzbach, II
Keith A. Yancey
Marc E. Avers
Michelle Emigh
Travis R. Schenck
Jennifer L. Trieschman
Joseph Bowman
Christopher Roark
Brycandis Boatwright
Sharon L. Carvalho




                                   21
